                      U.S. Department of the Interior
                          Office of Inspector General




                AUDIT REPORT


Inventory System and Performance Results of the
       Abandoned Mine Land Program,
   Office of Surface Mining Reclamation and
                  Enforcement




 Report No. 2003-I-0074                 September 2003
                United States Department of the Interior

                                 Office of Inspector General
                                       Eastern Region Audits
                                         381 Elden Street
                                             Suite 1100
                                      Herndon, Virginia 20170

                                                                              September 30, 2003


Memorandum

To:            Director, Office of Surface Mining Reclamation and Enforcement

From:          William J. Dolan, Jr.
               Regional Audit Manager, Eastern Region

Subject:       Final Audit Report on the Inventory System and Performance Results of the
               Abandoned Mine Land Program, Office of Surface Mining Reclamation and
               Enforcement (Report No. 2003-I-0074)

       This report presents the results of our audit of the Abandoned Mine Land Inventory
System (AMLIS) and the Abandoned Mine Land (AML) Program performance reporting of the
Office of Surface Mining Reclamation and Enforcement (OSM).

         The OSM utilizes AMLIS, which is a computer database compilation of abandoned mine
sites in the United States, to perform reclamation activities through AML. We found that
AMLIS contained inaccurate data that compromised its ability to identify the highest priority
sites for funding, forecast future reclamation needs, and measure performance under AML
program goals. The OSM needs to establish a quality control system that ensures the accuracy of
data entered into AMLIS, update and periodically adjust the estimated costs of reclamation, and
establish procedures to verify the validity of reported performance for acid mine drainage
projects.

        In the September 26, 2003, response to our draft report, the Director of OSM concurred
with the report’s three recommendations. We consider Recommendations 1 and 3 resolved and
implemented and Recommendation 2 resolved but not implemented. Accordingly, we are
referring Recommendation 2 to the Assistant Secretary for Policy, Management and Budget for
tracking of implementation.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. App 3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report.

        If you have any questions regarding this report, please call me at (703) 487-8011.
Table of Contents
                                                                                                                                      Page
  Introduction .........................................................................................................................1
    Background ..........................................................................................................................1
    Objective and Scope .............................................................................................................3

  Results of Audit ...................................................................................................................4
     AMLIS Not Accurate ...........................................................................................................4
         Completed Projects ......................................................................................................5
         Unreclaimed Sites ........................................................................................................5
         Update of Cost Estimates for Unreclaimed Sites .........................................................6
     GPRA Reporting ...................................................................................................................6
         AML Acres Reclaimed ................................................................................................6
         Number of AMD Projects ............................................................................................7
     GPRA Goals and Measures ...................................................................................................8

  Recommendations ..............................................................................................................9
  Director, Office of Surface Mining Reclamation and
  Response and Office of Inspector General Reply ...................................................9

  Appendix
     1. Sampling Method and Projected Results ........................................................................10
     2. Response to Draft Report ...............................................................................................12
     3. Status of Recommendations ...........................................................................................16




                                                     i
  Introduction
                 The Surface Mining Control and Reclamation Act of 1977
   Background    (SMCRA) established the Office of Surface Mining Reclamation
                 and Enforcement (OSM) to regulate coal mining operations and to
                 reclaim lands and waters degraded and abandoned before the Act
                 was passed. OSM performs reclamation activities through its
                 Abandoned Mine Land Program (AML), which is funded from
                 fees paid by coal operators to the Abandoned Mine Reclamation
                 Fund (AML Fund).1 State and Indian tribal governments perform
                 nearly all of the reclamation work through grants from the AML
                 Fund that totaled about $198 million in fiscal year (FY) 2001.
                 Also in FY 2001, OSM administered the federal reclamation
                 program that received about $18 million from the AML Fund for
                 emergency reclamation activities not covered by state and Indian
                 tribal programs.

                 SMCRA set priorities for using monies from the AML Fund, as
                 follows: (1) the protection of public health, safety, general welfare,
                 and property from extreme danger of adverse effects of coal
                 mining practices; (2) the protection of public health, safety, and
                 general welfare from adverse effects of mining practices; (3) the
                 restoration of land and water resources and the environment
                 previously degraded by adverse effects of mining practices; (4) the
                 protection, repair, replacement, construction, or enhancement of
                 public facilities; and, (5) the development of publicly owned land
                 adversely affected by coal mining practices.

                 SMCRA also required the Secretary of the Interior to maintain an
Inventory of     inventory of degraded sites meeting priorities 1 and 2 (high priority
Abandoned Mine   projects) and to provide standard procedures for states and Indian
Land             tribes to keep the inventory current. This requirement led OSM to
                 create the Abandoned Mine Land Inventory System (AMLIS),
                 which is a computer database compilation of abandoned mine sites
                 in the United States. AMLIS contains data on unfunded high
                 priority coal reclamation sites, funded projects, and completed
                 projects listed by problem type.2 It is the primary source of

                 1
                   Coal mine operators pay fees of 35 cents per ton for surface mined coal, 15
                 cents per ton for coal mined underground, and 10 cents per ton for lignite. OSM
                 deposits the fees into the AML Fund. Expenditures from the Fund may only be
                 made through appropriations and are used to pay the costs of abandoned mine
                 land reclamation projects and transfers to the United Mine Workers of America
                 Combined Benefit Fund.
                 2
                   A problem type is an adverse condition, such as a clogged stream, waste pile,
                 landslide, subsidence, or an underground mine fire.



                                      1
                 information on the number of sites and amounts of funds used for
                 reclamation work completed and for sites remaining to be
                 reclaimed. The information in AMLIS is developed and updated
                 by the individual states or Tribes, or OSM, as applicable.

                 At the end of FY 2001, AMLIS reported that reclamation projects
                 costing $1.5 billion had been completed and that it would cost
                 $8.5 billion to reclaim the remaining abandoned mine sites. Of the
                 $8.5 billion, priority 1 sites totaled approximately $200 million,
                 priority 2 sites totaled about $6.5 billion, and priority 3 sites
                 totaled about $1.8 billion. Funded but incomplete projects
                 comprised the remaining $241 million.


                 The Government Performance and Results Act of 1993 (GPRA)
GPRA Goals       requires federal departments to prepare annual performance reports
Related to the   comparing planned, measurable goals with actual performance
AML Program      results. Congress was concerned that “Federal managers are
                 seriously disadvantaged in their efforts to improve program
                 efficiency and effectiveness, because of insufficient articulation of
                 program goals and inadequate information on program
                 performance.” The purpose of GPRA was to “help Federal
                 managers improve service delivery, by requiring that they plan for
                 meeting program objectives and by providing them with
                 information about program results and service quality.” In
                 accordance with GPRA, OSM established two AML performance
                 goals based on the following performance measures:

                 1. Acres Reclaimed. AML sets annual target goals based on
                 specific amounts of acreage to be reclaimed, “GPRA acres.” OSM
                 computes GPRA acres using standard conversion factors for each
                 problem type. For FY 2001, OSM planned to reclaim 8,600 GPRA
                 acres and reported that 13,808 acres were reclaimed.

                 2. Number of New Acid Mine Drainage (AMD) Projects. In
                 1995, OSM started the Appalachian Clean Streams Initiative
                 (ACSI). The intent of the initiative was to facilitate the partnership
                 efforts of citizen groups; university researchers; the coal industry;
                 corporations; the environmental community; and local, state, and
                 federal government agencies in eliminating the environmental and
                 economic impact of streams polluted by acid mine drainage. In FY
                 2001, OSM planned to fund 35 new cooperative AMD projects
                 under ACSI and reported that 37 projects were initiated.




                                   2
                Our objective was to determine whether OSM: (1) maintained
Objective and   complete and accurate information in AMLIS to permit effective
Scope           management of and reporting on AML activities, and (2)
                established adequate performance measures and goals, and data
                verification procedures to accurately report on AML performance
                results. Our audit was conducted at OSM headquarters in
                Washington, D.C.; Regional Offices in Pittsburgh, Pennsylvania,
                and Denver, Colorado; and five field offices.

                As part of our audit, we evaluated OSM’s system of internal
                controls related to the data in AMLIS and the information reported
                to Congress in its “Fiscal Year 2001 Performance Report.”

                We conducted our audit in accordance with the “Government
                Auditing Standards,” issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures that were considered necessary under the
                circumstances.




                                 3
 Results of Audit
              We found that AMLIS contained inaccurate data. This diminishes
              its usefulness for identifying the highest priority sites3 for funding,
              forecasting future reclamation needs, and measuring performance
              under AML program goals. Accurate information for decision-
              making is particularly important at this time because OSM’s
              authorization for collecting reclamation fees under SMCRA is due
              to end on September 30, 2004, creating an imminent need for
              legislative and programmatic change. Our audit also determined
              that OSM lacked effective procedures for verifying the validity of
              reported performance under the goal for AMD.


              Our testing of the accuracy of costs and measurement data4 in
AMLIS Not     AMLIS disclosed that approximately 23 percent of the data listed
Accurate      for completed projects and 22 percent for unreclaimed sites were
              incorrect or not supported by adequate documentation. We
              attribute these high error rates to the lack of adequate procedures
              for ensuring that data were accurately entered into AMLIS. In
              addition, we found that OSM does not perform a periodic
              adjustment of the estimated costs for unreclaimed sites to reflect
              price changes. As a result, the reliability of total AMLIS estimated
              cost of $8.5 billion for unreclaimed sites is questionable.

              To determine whether the inventory of AML sites was complete
              and accurate, we reviewed sites listed for the States of Kentucky,
              Ohio, Pennsylvania, and West Virginia, because they accounted
              for 78 percent, or $6.7 billion of the $8.5 billion, of the estimated
              costs listed for unreclaimed sites in AMLIS. We statistically
              sampled 48 of the 8,925 line items listed for completed projects
              and 54 of the 8,529 line items listed for unreclaimed sites for these
              states. We restricted our review to errors impacting the two most
              significant attributes of the inventory, the measurement data (units)
              listed and the actual or estimated cost listed, as appropriate.
              Detailed information on our sampling methodology and results is
              in Appendix 1.

              3
                Although AMLIS records data by problem areas, we refer to them as either
              unreclaimed sites or completed projects in the report.
              4
                Measurement data (units) are acres, miles, feet, counts, or gallons per minute
              depending on the problem type. For example: acres of dangerous
              embankments, miles of clogged stream, feet of dangerous highwall, counts (two)
              of mine openings, and gallons per minute of water problems.




                                   4
Completed Projects   We found errors in the unit and cost data recorded in AMLIS for
                     115 of the 48 sampled completed projects, resulting in a total
                     projected error rate of 22.92 percent. Specifically, we found that:

                          •    Measurement data (units) for 10 of the 48 completed
                               projects reviewed were not in agreement with supporting
                               documentation. For example, AMLIS reported for one
                               project that 30 acres of spoil area had been reclaimed, but
                               the supporting documentation showed that only 12 acres
                               were reclaimed for the project. The error rate for these 48
                               projects was projected to be 20.83 percent.

                          •    Reported costs for 10 of the 48 projects reviewed were
                               either not supported by appropriate documentation or were
                               not in agreement with the documentation provided. For
                               example, for one project AMLIS reported $66,671 for a
                               dangerous impoundment and the supporting
                               documentation instead showed $37,950 for a dangerous
                               slide. There was no supporting documentation for the
                               dangerous impoundment that was reported in AMLIS. In
                               another example, a project was incorrectly recorded in
                               AMLIS as $805,456 for a surface burning reclamation
                               project, when it should have been listed as $580,359 for
                               cleaning up a bad water supply. The error rate for these 48
                               projects was projected to be 20.83 percent.


Unreclaimed Sites    We found 6 errors in the unit data and 12 errors in the cost data
                     recorded in AMLIS for 126 of the 54 sampled unreclaimed sites,
                     resulting in a total projected error rate of 22.2 percent.
                     Specifically, we found that:

                          •    Measurement data (units) for 6 of the 54 sites reviewed
                               were either not supported by appropriate documentation or
                               were not in agreement with the documentation provided.
                               For example, AMLIS reported that four portals needed to
                               be reclaimed at one site, and the supporting documentation
                               reported two portals. The error rate for these 54 sites was
                               projected to be 11.1 percent.


                     5
                       9 of the 11 projects contained errors in both recorded units and costs and were,
                     therefore, included in each of the categories above.
                     6
                       6 of the 12 unreclaimed sites contained errors in both recorded units and costs
                     and were, therefore, included in each of the categories above.



                                           5
                          •   Reported costs for 12 of the 54 sites reviewed were either
                              not supported by appropriate documentation or were not in
                              agreement with the documentation provided. For example,
                              for one site AMLIS reported an estimated cost to reclaim
                              of $72,178,523, however the supporting documentation
                              showed an estimated cost of $52,762,500. The error rate
                              for these 54 sites was projected to be 22.2 percent.


  Update of Cost      We also found that the estimated costs listed for unreclaimed sites
  Estimates for       are not periodically updated to reflect current conditions. OSM
                      Directive AML–1 requires that OSM update the unreclaimed site
  Unreclaimed Sites   inventory under specific circumstances, such as when new
                      problems are identified, priority rankings change, or when
                      estimated costs are revised “substantially.” In our opinion, OSM
                      should require that cost estimates recorded in AMLIS be updated
                      periodically to facilitate effective decision-making.

                      We recognize that it is not practical to re-estimate the costs of
                      reclaiming sites on an individual basis because the inventory
                      contains information on approximately 9,000 unreclaimed sites.
                      However, we believe a viable method could be developed, based
                      on the average actual costs to reclaim each site. For example, an
                      average reclamation cost per acre could be determined from the
                      actual reclamation costs of recently completed projects and applied
                      to the sites listed in AMLIS. Once cost estimates have been
                      initially updated, either the average cost per acre method or an
                      appropriate price index, such as one based on percentage increases
                      or decreases in construction costs, could then be applied
                      periodically to keep the estimates current.


                      Improvements are needed in GPRA reporting on the number of
GPRA Reporting        acres reclaimed and AMD projects started. Specifically, OSM did
                      not have adequate procedures for validating and verifying the
                      information reported in AMLIS for unreclaimed sites, completed
                      projects, and for the performance reported under the AMD goal.

    AML Acres         The annual performance of the AML environmental restoration
    Reclaimed         program is reported based on the number of GPRA acres shown as
                      reclaimed in AMLIS and, therefore, any errors intrinsic to AMLIS
                      are reflected in reported results. As previously discussed, our
                      statistical review of AMLIS disclosed an average error rate of
                      approximately 23 percent regarding completed projects.
                      Consequently, because GPRA acres are based on the data recorded
                      in AMLIS, performance results could be significantly misstated.



                                        6
                Implementation of our recommended actions for ensuring the
                accuracy of AMLIS data should correct the misstatements and
                serve as the verification and validation process for reported results.


Number of AMD   We found that OSM did not have a method in place to verify and
Projects        validate the data supporting the number of new AMD projects
                funded under the Appalachian Clean Streams Initiative. In FY
                2001, OSM’s goal was to provide funding for 35 new AMD
                projects, and it reported that 37 projects were actually provided
                funding during the fiscal year. However, we found that OSM had
                not established clear criteria to identify: (1) the actual date of a
                new project or (2) the type of documentation needed by OSM to
                ensure the validity of the newly funded projects reported. As a
                result, we found that states were identifying newly funded projects
                with varying criteria, such as authorization to proceed dates and
                actual project start dates. We also found that OSM frequently
                misinterpreted and erroneously reported information because they
                did not require clear and consistent documentation. We reviewed
                the documentation regarding the 37 new projects reported by OSM
                for FY 2001 and found support for only 25 new projects. As a
                result, instead of exceeding its target goal by two projects, OSM
                was actually 10 projects short of achieving its targeted
                performance. For example, OSM reported seven new projects for
                Ohio. During the audit, a State of Ohio Department of Natural
                Resources representative informed us that there were only three
                new ACSI projects during FY 2001.

                During our audit, OSM developed a definition for “new” projects
                and distributed it to the states and OSM field offices. OSM is also
                in the process of developing criteria to establish clearly defined
                procedures for identifying, documenting, and verifying the validity
                of new projects for the year.




                                  7
               In our report, “Special Report to the Chairman, Committee on
GPRA Goals     Governmental Affairs United States Senate, Review of the Fiscal
and Measures   Year 1999 Performance Reports and Fiscal Year 2001
               Performance Plans for the U.S. Department of the Interior” (No.
               00-I-533) in June 2001, we suggested that OSM could improve its
               fiscal year 2001 GPRA goals reporting by (a) providing sufficient
               information to fully explain the goals and their significance, (b)
               describing the total program areas for which measures have been
               established, and (c) adding goals and measures that address the
               highest priority coal projects.

               We found that during fiscal year 2001, OSM had the goal to
               reclaim 8,600 acres and reported reclaiming 13,808 acres. This
               goal and its measure did not provide information on the
               accomplishments by priority or type of project. The other GPRA
               goal for fiscal year 2001 was to fund 35 new AMD projects under
               the Appalachian Clean Streams Initiative. OSM reported funding
               37 new projects. This goal and its measure did not provide useful
               information on the results of the funding.

               During fiscal year 2002, OSM identified three new GPRA goals
               and set measures that are more detailed and outcome-oriented for
               fiscal year 2004. For example, one new goal is to eliminate health
               and safety hazards related to past mining and its measures are the
               number of hazards eliminated by type, actual units, and the number
               of people no longer at risk for these hazards. OSM has established
               individual measurement goals for each type of hazard for fiscal
               year 2004. Also, the goal aims to reduce the safety risks related to
               past mining for 10,000 people. The other new GPRA goals are to
               improve mine-scarred land and water resources and to improve the
               use of financial resources dedicated to protecting the public from
               the adverse effects of past mining.




                                 8
Recommendations
             We recommend that the Director, OSM:

                1. Establish a quality control system that ensures that states,
                   Tribes, and OSM, as applicable, review and certify the
                   accuracy of data entered into AMLIS.
                2. Update the estimated costs of reclaiming sites not yet
                   reclaimed and continue to adjust the costs on a periodic
                   basis.
                3. Establish procedures to verify the accuracy of the number
                   of funded AMD projects reported under ACSI.




Director, Office of Surface Mining Response
and Office of Inspector General Reply
             In the September 26, 2003, response (Appendix 2) to the draft
             report, OSM concurred with the three recommendations.
             Recommendations 1 and 3 are considered resolved and
             implemented and Recommendation 2 resolved but not
             implemented (Appendix 3). The response indicated that
             Recommendation 2 will be implemented by the end of fiscal year
             2004.




                              9
                                                                                                  Appendix 1
                                                                                                  Page 1 of 2

                SAMPLING METHOD AND PROJECTED RESULTS

The purpose of our testing was to assess the reliability of the data contained in AMLIS for
decision-making and reporting. Because the most significant information for effective decision-
making and reporting involved the number of acres reclaimed each year by the AML program
and the estimated costs to reclaim the remaining acres, we focused our review on errors that
would impact the accuracy of these attributes. We performed a statistical review of random
attribute samples selected from the total population of lines of data (input) for completed projects
and unreclaimed sites in the following four states: Kentucky, Ohio, Pennsylvania, and West
Virginia. These four states represent 78 percent of the total estimated cost to reclaim high
priority AML acres. The sampling method gave every line (generally problem type) in the
population the same chance of selection and was designed to measure the rate of occurrence on
the attributes of interest, which were reported costs and measurement data (units). The samples
were not designed to estimate the population values or their differences from the recorded
values.

Completed Projects
We randomly selected 60 completed projects for review. However, we were unable to review
the documentation for 12 of the sampled projects because 5 were USDA RAMP (Rural Area
Mine Program) projects not within the scope of our review and 7 of the projects were archived
and supporting documentation was not available. Exclusion of these 12 sample items resulted in
a revised sample size of 48. The sample was drawn from lines of data in the AMLIS database.
For the selected states, there were 8,925 lines of data with 4,053 project numbers.


                                                     Overall                 Error Rate
                                    Sample Number of Error               Lower       Upper        Confidence
                                     Size   Errors    Rate               Limit       Limit          Level
    Completed Projects                 48
      Reported Costs                               10        20.83%      10.5%      34.95%            95%
      Measurement Data                             10        20.83%      10.5%      34.95%            95%
     Items in more
     than one category7                           (9)
    Items with errors                              11        22.92% 12.06%          37.26%            95%




7
  Nine of the 11 completed projects contained errors in both reported costs and measurement data and were,
therefore, included in each of the categories above.


                                                        10
                                                                                                    Appendix 1
                                                                                                    Page 2 of 2

Unreclaimed Sites8
We randomly selected 60 sample items for review in this area. However, six sample items were
USDA RAMP sites. Exclusion of these 6 items resulted in a revised sample size of 54. RAMP
sites account for 709 of 8,529 lines of data and 391 of 5,219 problem areas for the selected
states.

                                                          Overall           Error Rate
                               Sample Number of           Error         Lower Upper              Confidence
                               Size   Errors              Rate          Limit   Limit            Level
Unreclaimed Sites              54
  Reported Costs                      12                  22.22%        12.08% 35.53%           95%
  Measurement Data                    6                   11.11%        4.22% 22.57%            95%
  Items in more than one
  category9                                (6)
Items with errors                          12             22.22%        12.08% 35.53%           95%


Sample Results
The overall error rate is the rate of occurrence of the problem in the sample. If we had reviewed
the entire population, we are 95 percent confident that the actual error rate would fall between
the lower limit and the upper limit. For example, in our sample of 54 unreclaimed sites, we
found 12 with errors – a rate of 22.22 percent. Based on our sample, we are 95 percent confident
that if we had tested all of the sites in AMLIS, the error rate would be between 12.08 percent and
35.53 percent.

For reported costs, an error occurs when the costs reported in AMLIS are not supported by
appropriate documentation or are not in agreement with the documentation provided. For
measurement data, an error occurs when data reported in AMLIS are not supported by
appropriate documentation or are not in agreement with the documentation provided.

Six of the 12 unreclaimed sites contained errors in both reported costs and measurement data and
were, therefore, included in each of the categories above.




8
  The unreclaimed sites included unfunded problem areas only. Funded projects were excluded because they were
only 28 percent of the costs to be reclaimed and were in varying stages of completion.
9
  Six of the 12 unreclaimed sites contained errors in both reported costs and measurement data and were, therefore,
included in each of the categories above.


                                                         11
     Appendix 2
     Page 1 of 4




12
     Appendix 2
     Page 2 of 4




13
     Appendix 2
     Page 3 of 4




14
     Appendix 2
     Page 4 of 4




15
                                                                         Appendix 3



              Status of Audit Recommendations

Recommendation     Status                        Action Required
    1 and 3      Resolved and    No further response to the Office of Inspector General
                 implemented.    is necessary.

      2          Resolved; not   No further response to the Office of Inspector General
                 implemented     is necessary. The recommendation will be referred to
                                 the Assistant Secretary for Policy, Management and
                                 Budget for tracking of implementation.




                                     16
                             How to Report
                Fraud, Waste, Abuse, and Mismanagement
Fraud, waste, and abuse in Government are the concern of everyone – Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:

             Mail:        U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 5341-MIB
                          1849 C Street, NW
                          Washington, DC 20240

             Phone:       24-Hour Toll Free          800-424-5081
                          Washington Metro Area      202-208-5300
                          Hearing Impaired (TTY)     202-208-2420
                          Fax                        202-208-6081
                          Caribbean Field Office     340-774-8300
                          Hawaiian Field Office      808-525-5310

             Internet:    www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
2
